<html>
<title> - THE NOMINATION OF SUSAN FAYE BEARD TO BE INSPECTOR GENERAL AT THE DEPARTMENT OF ENERGY</title>
<body><pre>[Senate Hearing 114-473]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-473
 
   THE NOMINATION OF SUSAN FAYE BEARD TO BE INSPECTOR GENERAL AT THE 
                          DEPARTMENT OF ENERGY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 12, 2016

                               __________
                               
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               
                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               
               
               

           Available via the World Wide Web: http://fdsys.gov
           
           
           
                                 _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-126                  WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
 
           
           
           
           
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel 
                 Kellie Donnelly, Deputy Chief Counsel 
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     2

                               WITNESSES

Beard, Susan Faye, nominated to be Inspector General at the 
  Department of Energy...........................................     4

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Beard, Susan Faye:
    Opening Statement............................................     4
    Written Testimony............................................     6
    Response for the Hearing Record to Question from Senator 
      Wyden......................................................    24
    Responses to Questions for the Record........................    30
Cantwell, Hon. Maria:
    Opening Statement............................................     2
Murkowski, Hon. Lisa:
    Opening Statement............................................     1


   THE NOMINATION OF SUSAN FAYE BEARD TO BE INSPECTOR GENERAL AT THE 
                          DEPARTMENT OF ENERGY

                              ----------                              


                         THURSDAY, MAY 12, 2016

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order so that we can consider the nomination of Ms. 
Susan Beard to be the Inspector General (IG) of the Department 
of Energy.
    This is an important position at a large agency, and by 
looking back at its origin we can understand what Congress 
intended with its creation.
    In 1977 with energy in crisis and of note, the very year 
that this Committee was reconstituted with express jurisdiction 
over the nation's energy policy, Congress established both the 
Department of Energy (DOE) and the Office of the Inspector 
General (OIG) within it. The Department of Energy Organization 
Act requires the President to appoint an Inspector General to 
lead the OIG. I quote, ``Solely on the basis of integrity and 
demonstrated ability and without regard to political 
affiliation.'' Notably the DOE's IG was one of the first in the 
government, preceding the IGs established by the Inspector 
General Act of 1978.
    Given the significance of the Department's mission, the DOE 
Act specifically requires the IG as one of a few primary 
responsibilities to, and again I quote, to ``Keep the Secretary 
and the Congress fully and currently informed concerning fraud 
and other serious abuses, problems and deficiencies relating to 
the administration of programs and operations administered or 
financed by the Department, to recommend corrective action 
concerning problems, abuses and deficiencies and to report on 
progress.''
    The only way that an Inspector General can discharge these 
important responsibilities is to be fully qualified and to 
maintain his or her independence from the rest of the Energy 
Department. Indeed, the DOE Act expressly provides that ``The 
IG shall report to the Secretary, but shall not be under the 
control of or subject to supervision by any other officer of 
the Department except in the case of an express delegation by 
the Secretary or the Deputy Secretary.''
    Ever since Gregory Friedman retired last fall--after 
serving as Inspector General for 17 years and as a professional 
in that office for another 16 years before being promoted to 
IG--the office has been under the direction of an Acting IG.
    As a starting point, I think we can all agree that DOE 
needs a permanent Inspector General. However, I think we can 
also agree that given the importance of this position, we have 
to be sure we have the right person before we confirm anyone to 
it.
    So make no mistake, this is a big job. The Washington Post, 
when it reported on Mr. Friedman's retirement last year, noted 
the many politically sensitive cases he has investigated. These 
include the controversial case of a scientist named Wen Ho Lee 
who was wrongly charged with stealing secrets about the U.S. 
nuclear arsenal; the Solyndra scandal that left taxpayers on 
the hook for $535 million in loan guarantees; and the arrest of 
three activists who penetrated the Energy Department's nuclear 
weapons production facility in Oak Ridge, Tennessee. Those are 
just a few of the reasons why I am committed to ensuring that 
the individual we confirm is fully independent with good 
judgment in difficult situations.
    The candidate must also have a firm grasp of the 
responsibilities of an Inspector General, responsibilities not 
only to the Secretary but to the Congress as well. The law 
requires an IG to meet his or her independent obligations to 
Congress, and while we expect the IG to approach the work with 
civility, the independence of the Office of Inspector General 
must never be compromised.
    Ms. Beard has been an attorney within the Energy 
Department's Office of General Counsel for the past 27 years, 
clearly an admirable career. But after almost three decades 
with DOE it may be difficult to transition from defending the 
agency's interest as an attorney to scrutinizing the 
Department's actions as the Inspector General.
    I am interested this morning to learn how the nominee 
intends to ensure the independence of the Office of Inspector 
General as it audits and investigates all operations of DOE 
including those areas that have been under her jurisdiction as 
Senior Agency Lawyer.
    I am also keen to learn more about the nominee's 
experience, qualifications and intended approach for the 
serious responsibilities that come with this position. Because 
confirmation would be tantamount to a lifetime appointment, the 
bar for an IG nominee is especially high.
    We are here today to ask questions and raise attention to 
whether Ms. Beard is the right fit for this permanent position, 
and I look forward to this morning's discussions.
    With that, Senator Cantwell, good morning.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chairman, for scheduling 
this hearing, and Ms. Beard, for your willingness to serve in 
this capacity as Inspector General for the Department of 
Energy.
    The role of Inspector General, as my colleague has said, is 
a very important role in any agency, but an Inspector General 
charged with the task of this particular agency, detection of 
fraud and abuse in its programs and operations, is key.
    The responsibility is especially great because it is, with 
its $30 billion budget, responsible for maintaining and 
safeguarding our nuclear arsenal, preserving our nuclear 
secrets, cleaning up some of the most hazardous contaminated 
places on earth and conducting cutting edge research, 
development and distant edges of science and understanding. The 
job calls for someone with both integrity and demonstrated 
ability who is familiar with the Department's many programs but 
can still maintain independence from the agency. The Inspector 
General must be able to identify the Department's failings, 
recommend corrective actions and ensure that progress is being 
made to correct the problems. This is something I will touch on 
in my questions.
    This is especially important to me and the State of 
Washington because we have a long history of leaking nuclear 
waste tanks, missed clean-up deadlines and workers being 
exposed to toxic vapors at Hanford. The former Inspector 
General has well documented many of these in past reports, but 
I will be looking for assurances that we will be able to hold 
the Department accountable and ensure that it meets its cleanup 
responsibilities and protects its workers. As you probably know 
we have a tri-party agreement, the State of Washington with 
DOE, on meeting these deadlines.
    I believe Ms. Beard has good credentials. She knows the 
Department. She has spent 27 years as the attorney in the 
General Counsel's Office of the Department of Energy and the 
Department's designated ethics officer. She has been 
responsible for administrating the Ethics in the Government Act 
with the Department and guarding against conflicts of interest. 
She has demonstrated good integrity and legal capabilities 
within that job.
    I will also be looking forward to questioning about what 
vigilant watch dog role you can play in holding this very, very 
important agency accountable.
    Thank you very much for your willingness to serve.
    The Chairman. Thank you, Senator Cantwell.
    Ms. Beard, the rules of the Committee--which apply to all 
nominees--require that they be sworn in, in connection with 
their testimony, so I ask that you please rise and raise your 
right hand.
    Do you solemnly affirm that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    Ms. Beard. I do.
    The Chairman. You can go ahead and be seated.
    Before you begin your statement I will ask you three 
questions addressed to each nominee before this Committee.
    Will you be available to appear before this Committee and 
other Congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    Ms. Beard. Yes, I will.
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict or 
create an appearance of such of conflict should you be 
confirmed and assume the office to which you have been 
nominated by the President?
    Ms. Beard. My investments, personal holdings and other 
interests have been reviewed both by myself and appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest, and 
there are no conflicts of interests or appearances thereof to 
my knowledge.
    The Chairman. Are you involved or do you have any assets 
held in blind trust?
    Ms. Beard. No, I do not.
    The Chairman. Thank you, Ms. Beard.
    You may now proceed with your opening comments and then 
members of the Committee will have an opportunity to present 
their questions.
    Thank you and go ahead.

STATEMENT OF SUSAN FAYE BEARD, NOMINEE TO BE INSPECTOR GENERAL 
                  AT THE DEPARTMENT OF ENERGY

    Ms. Beard. Chairman Murkowski, Ranking Member Cantwell, 
distinguished members of the Committee, thank you for the 
opportunity to appear before you today. It is a great 
privilege.
    I'm honored to have been nominated by the President and to 
be considered by this Committee for confirmation as the 
Inspector General for the Department of Energy.
    I would like to start by thanking, from the very bottom of 
my heart, my husband, Charles Klingman and our children, Adina 
and Jacob. Charles has been extraordinarily supportive of me 
throughout our 27 years of marriage. Without his unending 
support I would not be able to be here today and would not have 
had the meaningful and rewarding career I've had as a career 
member of the Senior Executive Service while raising two 
wonderful children. Our marriage has truly been a team effort 
which I greatly appreciate, especially in light of the fact 
that our youngest child has significant developmental 
disabilities.
    I would also like to take this opportunity to thank my 
sister, Karen Yaghoubian. Even though Karen is only five years 
older than me, she really helped raised me. Our mother was 
diagnosed with breast cancer when I was three years old and 
passed away when I was 14. Without Karen's support, I would not 
have been able to attend college and law school. I would simply 
not be the person I am today.
    I was born in Chicago and my family moved to Los Angeles 
when I was young. I received my BA from Pomona College and my 
law degree from UCLA. While in law school I spent a summer as a 
law clerk for a law firm in Anchorage. It was a wonderful 
experience and exposed me to the warm people of Alaska and its 
breathtaking surroundings.
    After graduating from law school I worked for a short time 
in private practice for a law firm in Los Angeles. I then moved 
to Washington, DC to become a staff attorney with the Federal 
Election Commission, a position I held until I came to the 
Department of Energy in 1989. I also taught legal research and 
writing in a part time capacity at American University's Law 
School.
    I strongly believe in the importance and value of public 
service. I have been a career employee, Federal employee, for 
almost 29 years and a member of the Senior Executive Service 
for more than 13 years. I've been in an attorney position for 
all of my Federal career. In 2008 I was honored to receive a 
Senior Executive Service meritorious rank award from President 
George W. Bush.
    I have managed the Department of Energy's ethics program as 
the designated agency ethics official or the alternate 
designated agency ethics official for almost 20 years. For the 
last 13 years I have served the Department as the Assistant 
General Counsel for General Law. In this capacity I not only 
manage the ethics program but also provide legal advice on a 
wide range of matters that impact all of the department's 
Federal workforce and, to a much lesser extent, the 
Department's contractors. The legal areas under my purview 
include Federal personnel law, information law, and 
appropriations law. I also manage the largest team of attorneys 
within the Department's Office of General Counsel.
    Over the years I've had the pleasure of working with the 
Office of Inspector General. The majority of this work dealt 
with allegations of statutory or regulatory ethics violations 
by current or former Federal employees. I've also worked on 
Federal personnel law issues, appropriations law and Freedom of 
Information Act matters with the Office of Inspector General.
    I believe strongly in the role of the Office of Inspector 
General as an independent office within the Department of 
Energy. If I'm fortunate enough to be confirmed to this 
position, I commit to you that I will uphold the standard of 
excellence and independence.
    In my role as the Department's designated agency ethics 
official I am responsible for advising the Department's most 
senior leaders to ensure compliance with the ethics 
requirements. I have never refrained from providing honest and 
unbiased legal advice. If I am confirmed, I will apply that 
same independence to the work of the Office of Inspector 
General.
    I believe the Office of Inspector General must apply the 
law and conduct thorough investigations, audits and inspections 
regardless of where the matter may lead. If I am confirmed, I 
pledge to work with this Committee and the full Congress to 
execute its important oversight duties.
    Madam Chairman, Ranking Member Cantwell, and members of the 
Committee, thank you again for the opportunity to appear before 
you. I look forward to answering any questions you may have.
    [The prepared statement of Ms. Beard follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    The Chairman. Thank you, Ms. Beard, and again, thank you 
for your willingness to take on this task.
    As I mentioned in my opening comments, I feel very strongly 
that in order to have an effective Inspector General within the 
Department of Energy or any agency the independence is the 
priority.
    As you have noted, you have been within the Department of 
Energy now as an attorney for the past 27 years. The concern, 
as I look at your background and your credentials, it is that 
significant experience, and I understand that, but the roles 
are very different from what you have been doing as effectively 
a counselor or an advocate within the Department of Energy to 
now one where you would be scrutinizing the Department that you 
have been working within for these past 27 years looking for 
areas to deal with waste, fraud and abuse.
    Can you outline for me, with greater specificity, how you 
envision a transition from your current position as the 
Assistant General Counsel for General Law to now serving as the 
DOE IG?
    Ms. Beard. Senator, thank you very much, and thank you very 
much for the question.
    I agree with you that independence is paramount for an 
Inspector General. As the Assistant General Counsel for General 
Law, I have no programmatic responsibilities as a program 
counsel for any of the Department's major programs. While I am 
very familiar with the Department and its activities, I serve a 
special role in the sense that it's mostly personnel law and 
the ethics program which I've had the most experience in.
    And as my role as the Designated Agency Ethics Official, I 
had to preserve the public's trust in Federal employees. And 
so, for example, over the years, many--there have been a number 
of occasions where I have referred current and former Federal 
DOE employees to the Inspector General's Office for review 
because I was concerned they had information that may have 
violated criminal statute or regulation.
    So even though I am a Department's--an attorney with the 
Department, I have this extra role of independence, and I 
really strongly believe in my independence as the Designated 
Agency Ethics Official. And I would carry that forward if I'm 
fortunate enough to be confirmed.
    The Chairman. Let me ask then about the duty to Congress, 
and this relates primarily to reports to Congress itself. How 
will you ensure that you are using every appropriate means that 
you have with regards to communication to make sure that 
Congress is fully informed of the proper operations of the 
Department of Energy? And how do you see this role here?
    For us here in Congress we think it is pretty clearly 
delineated. But the responsibility to report to Congress when 
you see things, how would you ensure that you are fulfilling 
that duty and that responsibility?
    Ms. Beard. Thank you again for the question, Madam 
Chairman.
    As you pointed out in your opening remarks, the DOE Act 
itself refers to the Department of Energy's Inspector General 
and its role dealing with Congress. And I take the law very 
seriously and would follow that.
    It's important not only to issue our reports and make them 
publicly available and make them aware to the Congress and the 
American public but also working with staff and Committee and 
members to make sure that issues are appropriately addressed.
    The Chairman. What do you do then when you are unable to 
gain the information that you feel can best inform you that in 
turn can best inform Congress? How would you view your 
responsibility to obtain that full and factual information?
    Ms. Beard. Again, thank you.
    For me, as far as I'm aware and this is based on 
conversations I've had with the former Inspector General while 
he was still at the Department, historically there has not been 
a problem at the Department with getting information that's 
needed from the Department for the Inspector General's Office.
    And I, in order for the Inspector General to do his or her 
job and the staff of the Office to do their job, they must have 
access to that information. And if it ever arose that we were 
not gained appropriate access, if I was confirmed, I would take 
serious and prompt action to make sure that we got everything 
we needed in order to do our jobs and conduct audits, 
inspections and investigations.
    The Chairman. Well I think that that is an important part 
because we, I think, have seen recently some interactions 
between some IGs, not necessarily within the Department of 
Energy, but some IGs and their agencies that have had a 
situation where that access to information has not been made 
readily available and that has been a situation of conflict.
    Let me turn to my colleague, Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Ms. Beard, obviously, as I mentioned in my opening 
statement, the issue of Hanford cleanup is a big concern to, I 
think, the whole nation but certainly the State of Washington 
continues to be a watch dog on this issue as well. Both my 
colleague and I have pushed the Secretary on the implementation 
of a 2014 report from Savannah River on their issues of 
cleaning up as it relates to worker safety and making sure that 
tank vapors and things of that nature are dealt with.
    So I plan to follow up this week with the Secretary on the 
implementation of that plan and his commitment to it. But I am 
curious, because I know we have had many reports, I think, from 
the Inspector General's Office in the past. I think there have 
been worker safety issues including as many as weaknesses in 16 
different Inspector General reports. So this is not about 
publishing a report. This is about getting results. Can you 
comment on how you would correct just publicizing these issues 
as opposed to helping to elevate?
    My opinion is that I have been with Inspector Generals at 
various oversight hearings for other Committee members, and I 
have seen which Inspector Generals have used their authority to 
elevate the issues in a way that certainly captures the 
attention of the people needed.
    How would you address the fact that a lot of worker safety 
issues have been in previous reports but we have not created 
the culture to address all of them?
    Ms. Beard. Thank you for the question, Senator.
    I agree with you that issuing all the reports in the world 
does not make a difference if action isn't taken on them. And 
in fact I was just looking, not long ago, at an inspector 
general's report that was issued by the Department that pointed 
out issues that had been around. The last time they looked at 
the issue five years previously had not been adequately 
addressed in that five-year period.
    If I'm confirmed I would like to take a more robust 
approach to making sure that the--of tracking and making sure 
that the Department is taking corrective action on 
recommendations that are made and making sure we are making it 
public as well when actions are not being taken, whether 
through webpage, issuing special notices or reports and making 
sure that there is a very robust follow up on recommendations.
    Senator Cantwell. So you believe in escalating those issues 
in a public way that causes action to happen?
    Ms. Beard. If it doesn't happen I do believe in----
    Senator Cantwell. Well wouldn't you say five years is long 
enough?
    Ms. Beard. Five years is more than long enough.
    And so it would be much shorter than five years but that 
was a report I saw recently. And I think it does need to get 
taken seriously and action needs to be taken. And I do believe 
it should be done quickly and more robust follow up I think is 
needed.
    Senator Cantwell. What role do you think whistleblowers 
play?
    Ms. Beard. I think whistleblowers play--thank you again for 
the question.
    I think whistleblowers play a very important role. And it's 
very important that whistleblowers feel and are, in fact, 
protected from retaliation.
    Senator Cantwell. To the Chairwoman's question about your 
past relationship with the agency and then moving over to this 
issue, how would you best address this using your past 
experiences to show your fortitude in making sure that your 
former colleagues are inspected in a robust way as you just 
mentioned?
    Ms. Beard. I personally have not been involved in any 
contract or whistleblower issues. I'm aware of a number of them 
just because of my time at the Department.
    But I think it's very important that the Department take 
the steps it needs to take to make sure that whistleblowers are 
protected and that the law is fully followed in this area. And 
it's something that we would put adequate resources on within 
the Inspector General's Office, if I am confirmed, to ensure 
those actions are being taken.
    The fact that it's been involved, an ongoing issue at the 
Department, even though I have not been involved in it, I do 
not have any particular background in it. But it's something 
that I'm very well aware of.
    Senator Cantwell. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Senator Barrasso?
    Senator Barrasso. Thank you, Madam Chairman.
    Following up on some of the things that Senator Murkowski 
asked and said in her opening statement. You have served at the 
Department of Energy since 1989 as Senator Murkowski mentioned, 
a long, distinguished career. You have been a legal advocate 
for the agency for 27 years. The position to which you have 
been nominated, the position of Inspector General, is 
effectively a lifetime appointment. If confirmed, you will be 
asked to audit and investigate an agency that you have promoted 
for decades, as Senator Murkowski has said. If confirmed, you 
will be asked to audit and investigate colleagues, people with 
whom you have worked with decades and who made decisions based 
upon your own advice. I think all of us have questions about 
whether you or anyone in these circumstances would be able to 
exercise sufficient independence and objectivity to be an 
effective Inspector General.
    I understand that prior to your nomination the General 
Counsel of the Department asked you if you had an interest in 
filling this vacancy. To be candid, I find that cause for 
concern that they would ask if you were willing to fill the 
vacancy. Is it reasonable for us to assume that after 27 years, 
as an advocate for the Department, that you will be an 
effective watch dog of that same Department?
    Ms. Beard. Thank you for the question, Senator.
    Most of my Federal career at the Department has been in the 
Department's Ethics program where I was responsible for 
ensuring that the Department's employees followed the statutes, 
the laws, and regulations on confidential matters and part of 
that is making sure that the American public and the Congress 
have the, to show the trust that they can have on our public 
service, in our public servants.
    In that capacity I have given advice to employees regarding 
conflicts of interest and other matters. During those 27 years 
I've been at the Department no legal advice that I've ever 
given has been before the Inspector General's Office. I do not 
envision that any legal advice I give in the future, that I've 
given, in the future will be in front of the Inspector 
General's Office for review.
    But as part of that I actually have told employees they 
can't do things. I mentioned in my opening comments that I give 
honest and unbiased advice.
    What I did not mention in my opening comments is often the 
advice I give is something the employee does not want to hear. 
It has never stopped me from giving the advice I think is 
appropriate, and I would continue to follow that independence 
if I was confirmed as Inspector General.
    I think it's very important in my ethics capacity as well 
if I was to be confirmed as Inspector General is to discover 
the facts, apply the law and follow wherever they lead 
fearlessly, without being concerned about where they may point. 
And that is what I've done in my last 27 years as a Federal 
employee, and I would continue to do that, Senator.
    Senator Barrasso. You have served as Assistant General 
Counsel for General Law at the Department since 2004, so the 
last 11/12 years. In this capacity you have addressed questions 
concerning the Department's compliance with Federal law 
including the Freedom of Information Act, ethics laws, 
Congressional appropriations.
    Have you also worked on issues related to the Department's 
compliance with what is called the Miscellaneous Receipts 
Statute? That is the law that requires officials who receive 
proceeds on behalf of the Federal Government to deposit those 
proceeds into the Treasury.
    Ms. Beard. Yes, Senator, appropriations law is within the 
area of my office.
    Senator Barrasso. In 2011 the Government Accountability 
Office (GAO) found that the Department's transfers of excess 
uranium to USEC into Fluor Corporation violated the 
Miscellaneous Receipts Statute. The Office of General Counsel 
disputed the GAO's findings. Have you worked on issues related 
to the Miscellaneous Receipts Statute and the Department's 
transfers of excess uranium, that specific component?
    Ms. Beard. Yes, Senator, my office as well as several 
others in the Office of General Counsel did work on that.
    Senator Barrasso. So if confirmed will you recuse yourself 
then from matters involving the Department's transfers of 
excess uranium?
    Ms. Beard. Senator, if a matter comes up regarding the 
legal opinion that I was one of the people who worked on comes 
up? Yes, I would recuse myself. I have not been involved itself 
in any particular transfers involving excess uranium.
    Senator Barrasso. Have you worked on issues related to the 
Department's compliance with the Atomic Energy Act and the USEC 
Privatization Act?
    Ms. Beard. I have--I'm thinking off the top of my head, 
sir. My recollection is I've not worked on anything exactly 
involving the USEC Privatization Act.
    Senator Barrasso. In going through all this, because in 
September 2015 the Inspector General issued a report on 
enforcement activities at the Federal Energy Regulatory 
Commission (FERC). Among other things, the report examined 
whether FERC and the utility, Exelon, arranged a quid pro quo 
connecting FERC's approval of Exelon's merger with 
Constellation Energy to Constellation's settlement with FERC.
    I have to tell you I was very unimpressed with the 
Inspector General's investigation into the matter. I was 
especially disappointed that the Inspector General was 
unwilling to speak with individuals outside of FERC during this 
year-long investigation.
    I know you may not be completely familiar with the details 
of the report, but as a general matter, do you believe an 
Inspector General should be willing to speak with individuals 
outside of the government when investigating the government?
    Ms. Beard. Thank you for the question, Senator.
    I'm not familiar with the FERC matter. I have never had any 
responsibility regarding FERC in my job at the Department of 
Energy.
    I do think it's important that the Inspector General's 
Office gather all relevant facts in order to pursue a matter it 
is looking at, regardless of where the individuals are who have 
those facts.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    The Chairman. Thank you.
    Senator Warren?
    Senator Warren. Thank you, Madam Chairman.
    Ms. Beard, thank you for being here today.
    In recent years several massive new natural gas pipelines 
have been proposed in New England. Over and over again I have 
heard from citizens and from elected officials in Massachusetts 
who are deeply concerned about the impact of these projects on 
their property and in their communities. They feel like their 
voices have not been heard and their interests have not been 
represented.
    These complaints have been much stronger even for Kinder 
Morgan's Northeast Energy Direct project, and that specific 
pipeline was recently suspended. But others like Spectra's 
Access Northeast project are still moving forward, and believe 
me, concerns about pipeline projects are not going away.
    The Federal agency tasked with approving these pipelines is 
the Federal Energy Regulatory Commission, or FERC, for which 
the Department of Energy's Inspector General has oversight. For 
the last several years the Office of the Inspector General has 
proposed an audit of FERC's permitting process. Ms. Beard, what 
is the status of this audit, as you understand it?
    Ms. Beard. Thank you for the question, Senator.
    It is my understanding that the audit is ongoing at this 
time, but I'm not privy to any information regarding it other 
than that.
    Senator Warren. Let me ask the question then another way. 
If confirmed, will you prioritize the completion of this audit?
    Ms. Beard. Again, thank you, Senator.
    If confirmed I will prioritize the completion of the audit. 
My understanding, I should have added, is that right now 
considerable resources are being used on it.
    Senator Warren. But you will make this a priority?
    Ms. Beard. But I will make it a priority.
    Senator Warren. You personally will make this a priority.
    I know that Senator Shaheen and the rest of the New 
Hampshire delegation have raised this with the Office of the 
Inspector General before, but I think that it is extremely 
important that this audit thoroughly reviews the way that FERC 
involves the public in the permitting process. Will this audit 
focus on FERC's role in facilitating public involvement in the 
permitting process?
    Ms. Beard. My understanding and again, I do not have a very 
much specific since this is an ongoing matter within the Office 
of Inspector General, is that it's looking at the law, policies 
and procedures which includes public engagement.
    Senator Warren. Alright. And you will make a commitment to 
make sure it is looking at public engagement?
    Ms. Beard. My understanding, again Senator, is that is 
within the scope of the audit right now.
    Senator Warren. Excellent.
    I appreciate that FERC's permitting process is being 
reviewed by the Inspector General's Office, and I look forward 
to seeing the results of this audit.
    But even outside the purview of this particular audit, it 
is extremely important that FERC is making decisions that are 
really in the best interest of the people who will be most 
directly affected. If you are confirmed will you commit to 
working with me to address concerns about FERC's responsiveness 
to the public interest?
    Ms. Beard. Senator, again, thank you for the question.
    If confirmed I do commit to work with you and your staff 
regarding making sure that FERC is following the laws, policies 
and procedures.
    Senator Warren. Thank you, Ms. Beard.
    This is very important to me. Pipelines affect people's 
homes, their property, their communities and they have every 
right to be heard by the government on issues about pipeline 
permits. I just want to make sure that happens.
    I appreciate your coming here today to testify, and I look 
forward to continuing to work with you on these issues. Thank 
you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Warren.
    Senator Daines?
    Senator Daines. Thank you, Madam Chair.
    Ms. Beard, thank you for coming here today. I know it is an 
exciting moment, and it is great to have your family here with 
you as well.
    I also want to thank you for your long service to our 
country. Twenty-seven years at the DOE is impressive as well as 
commendable.
    As you know the Office of the Inspector General is the so-
called watch dog of the Department of Energy. Their primary 
role is to perform regular audits, inspections and 
investigations along with being a resource to Congress. Because 
of this role the Inspector General is often at odds with the 
Department. That is really what they are called to do. Yet you 
have spent most of your career as a lawyer for the Department 
of Energy and your specialties have been focused on ethics and 
general law, not necessarily auditing and investigations.
    The question is do you think that you will be able to 
transition into the watch dog role and do you think that your 
lack of experience in auditing and investigations will help or 
hinder that transition?
    Ms. Beard. Thank you very much for the question, Senator.
    I think already in my role in ethics it is a semi-watch dog 
role because of--it is my job to ensure that the Department has 
a robust ethics program and that includes, when need be, just 
referring employees and former employees to the Inspector 
General's Office which I have done on numerous occasions in the 
past, including employees who I personally knew well and 
personally liked. And so I really strongly believe in my 
independence in that role and I would believe I would carry 
that independence forward if I became Inspector General and was 
fortunate enough to be confirmed.
    I have been involved in a number of audits with the 
Inspector General's Office involving personnel law matters at 
the Department as well as some investigations as well involving 
some issues that do touch general law matters. I do have 
experience in both of those areas even though I'm not, 
obviously, an accountant.
    Senator Daines. Curious given you have a long history in 
the DOE you have a track record of working with the IG in the 
past. As you look at the IGs who have performed in the past, 
what would you say that you would like to do as you get a 
chance to put your fingerprints on this IG role that would make 
the IG role even more effective given you seem to have a lot of 
experience working with the IG?
    Ms. Beard. Thank you again for the question, Senator.
    One of the areas where I would like to see some changes is 
more robust follow up on recommendations that are being made 
and making sure that the Department is taking or FERC is taking 
action as recommended by the Inspector General in the reports 
that are issued.
    Senator Daines. Okay.
    I am going to pivot over and talk about energy. Energy 
production is a major part of our economy in Montana. We had an 
energy summit in Montana about a month ago. Looking forward 
over the next 35 years, with projections out to 2050, we had a 
representative from the U.S. Chamber that came and spoke. 
Energy consumption in the world is going to be up 84 percent 
according to their forecast, because we are going to add two 
billion more people to the planet between now and 2050.
    He said we have an abundance of traditional fuels like oil, 
gas and coal as well as renewables such as wind and 
hydroelectric in Montana. We see the importance of having a 
diverse energy portfolio, not only for our economy but also for 
our national security, in providing the necessary power to keep 
the lights on and keep our mobile devices charged.
    In the eastern half of our state coal is that major player. 
Montana has some of the cleanest coal out there, but it is 
becoming more and more obvious that this Administration is 
attempting to shut down coal and kill hundreds of jobs in 
Montana instead of investing in clean coal technology or in 
mines that produce cleaner coal like we have in Montana.
    There was a recent report from the Inspector General's 
Office that recommends stopping the funding of a clean coal 
project ran by Summit Texas Clean Energy, LLC. First of all, 
are you aware of that report?
    Ms. Beard. Senator, I'm aware the report was issued.
    Senator Daines. I think the official number for the file 
was OIGSR1602. Did you have a chance to see what the findings 
were in that report?
    Ms. Beard. I looked at it briefly, but I'm not that 
familiar with it, sir.
    Senator Daines. Do you think that the potential Inspector 
General, as the potential IG, that you should at least have a 
working knowledge of past decisions, especially one that was as 
recent as last month?
    Ms. Beard. Again, Senator, I have looked at it but I'm--all 
I've--I'm aware of the issues that was in the report.
    Senator Daines. I will say, each year I am disappointed in 
the Administration's lack of prioritization of clean coal 
technology and funding in its budget, and I do think we need to 
continue funding clean coal technology and do it responsibly.
    Thanks for your time.
    The Chairman. Thank you, Senator Daines.
    Senator Cassidy?
    Senator Cassidy. Hello, Ms. Beard. Handsome family.
    How important is programmatic knowledge, because clearly 
one of the things that you would bring to the table verses 
someone who might have more previous experience as an IG is 
that you have been within the Department of Administration. If 
you will, I can imagine that you could, particularly as an 
ethics officer have, kind of, studied, looked around over the 
years and thought well maybe that would be a place to 
investigate or this would be a place that would I be in a 
different role. Can't say that because, obviously, as an ethics 
officer you have to think about such things. So my first 
question is how important is programmatic knowledge as regards 
the execution of your duties? I will start with that.
    Ms. Beard. Obviously--thank you again for the question, 
Senator.
    Obviously I've been at the Department a long time, and I 
have broad general knowledge of the Department's programs. I 
have never been in a position where I'm setting policy for the 
Department or actually running programs for the Department 
other than the ethics program.
    Senator Cassidy. Except that.
    Now I am from Louisiana. I am a doctor, but I know a fair 
amount about energy just because energy is so much a part of my 
economy. So patients would come, and they did some aspect of 
energy and you make chit chat.
    So let me ask. Is your awareness of the issues at the DOE 
along the line of mine as a physician, you know, the people you 
just talk to over the water cooler, so to speak, or would it be 
of a deeper level?
    Ms. Beard. It's probably a deeper level than that, Senator. 
But again, I do not have programmatic responsibilities of those 
areas, but I have been in many meetings where issues have been 
discussed and I've learned about them over the years.
    Senator Cassidy. How important is in depth programmatic 
understanding? I do not know the answer to this. I am asking 
how important is great depth of programmatic knowledge? How 
important is it?
    Ms. Beard. I think to me, Senator, the advantage of 
somebody from within the Department becoming the Inspector 
General is that I'm not going to have to spend the first six 
months learning about the various programs and the acronyms and 
what not for the Department. I do have a general programmatic 
knowledge, but not an in depth programmatic knowledge. But 
that's something that I think I can pick up quickly as we're 
looking at various audits and inspections.
    Senator Cassidy. So the general knowledge portion of the 
learning curve you have under your belt. But if I were to ask a 
particular question, for example, in Louisiana the Strategic 
Petroleum Reserve, that would require more research on your 
part?
    Ms. Beard. I'm aware of the Strategic Petroleum Reserve and 
issues, for example, involving draw down of the reserve, but 
I'm not, I've never worked on an actual draw down matter.
    Senator Cassidy. Gotcha.
    It has come to my attention that Mr. Rickey Hass, the 
Acting Inspector General at DOE and the former Deputy Inspector 
General for Audit Services, plans to retire. Now I gather as an 
ethics person audits was not your bailiwick, if you will. You 
have mentioned that.
    Do you have a sense of who you are going to hire and, if 
appointed, what characteristics you would look for in such a 
person?
    Ms. Beard. I have--thank you again for the question, 
Senator.
    I have no sense of who I would hire. It would be an open 
competition to fill the position.
    I would look for somebody with a strong auditing background 
and he also was in charge of investigations as well, so a 
strong investigation background as well.
    Senator Cassidy. Now you also have a law enforcement 
responsibility. You could pack heat if you wished.
    But again, in ethics that is quite a different, I think, 
mindset. How do you adjust from the mindset of, kind of, okay, 
this is what you need to do, listen you will get in trouble if 
you cross the line and do not cross that line, but if you cross 
the line I have to report you verses up against the wall. Do 
you follow what I am saying?
    Ms. Beard. Yes, Senator, I do follow what you're saying.
    As a lawyer I take following the law very seriously. I 
believe in having a very robust investigation program within 
the Department, and I would hope I would continue making sure 
that we have a very strong law enforcement process.
    Senator Cassidy. Okay, I get that.
    It does seem that there is going to have to be some sort of 
an adjustment in how you approach an issue. I presume the 
gravity of something which was related to law enforcement may 
just be more.
    My aide just passed me something. If I could read his 
writing, I would have another question. [Laughter.]
    I yield back. Thank you.
     The Chairman. Senator Franken.
    Senator Franken. I want to thank my staff for typing out 
the questions.
    First of all, Ms. Beard, thank you for your 25 years with 
the Department of Energy and your dedication to serving the 
public good. Sometimes I think that when we hear criticisms of 
unelected bureaucrats I wish those people could meet unelected 
bureaucrats like yourself. So thank you.
    As you know probably better than anybody else in this room 
the Inspector General is constantly faced with politically 
heated issues but must remain nonpartisan and impartial to 
external pressures. Could you tell me about how you view the 
role of the Office of Inspector General as an independent 
entity?
    Ms. Beard. Thank you very much for the question, Senator.
    To me, the Inspector General is the main watch dog for the 
Department, for the public as well as for the Congress. And as 
it was pointed out in the Department of Energy Organization 
Act, it reports it has responsibility both to the Secretary of 
Energy as well as to the Congress as far as these reporting 
mechanisms and making sure that issues come to public light.
    I think it's very important. I think having a strong, 
independent Inspector General helps an agency complete its 
mission, and it really is a furtherance and a great help to the 
agency.
    Senator Franken. Thank you.
    Ms. Beard, I want to hear your thoughts about the DOE-
administered mixed oxide fuel fabrication facility, the MOX 
facility for short. When construction of the MOX facility 
commenced in 2007, estimated costs for the project were about 
$5 billion. U.S. taxpayers have already spent that amount on 
the project, but now the expected costs have ballooned to up to 
$30 billion.
    While I understand it is impossible to perfectly estimate 
the costs of some of these projects, I am concerned about 
funding a project that seems to get more expensive by the day. 
The Office of the Inspector General at DOE seems to share these 
concerns which they expressed in an audit report in May 2014.
    If you are confirmed how would you follow up with the 
Inspector General's concerns regarding the cost and management 
of the MOX project? And has DOE been doing an adequate job 
inspecting the ongoing work of the MOX facility?
    Ms. Beard. Thank you for the question, Senator.
    I share your concern about making sure that taxpayer 
dollars are well spent. They are all of our money, and I'd like 
to see them spent wisely across all agencies including the 
Department.
    And as I was talking about earlier, I'd like to see a more 
robust follow up within the Office of Inspector General and 
some recommendations. I would ensure that whether any 
recommendations were in that particular report were 
implemented, whether the Department has taken actions on them 
and what the timeframe of those actions are, and if need be, do 
additional work at MOX because, obviously, there's a very major 
project the Department has.
    Senator Franken. Yes, this has expanded from an estimated 
$5 billion to an estimated up to $30 billion. While you are 
obviously not in a policy making position, there has to be 
decisions made about whether to spend that extra $25 billion 
and go forward with it.
    How does your role as Inspector General inform the policy 
makers' decisions about whether to go forward with this, 
because there are alternative ways to use this fuel or we are 
attempting to make it fuel with this material from weapons?
    Ms. Beard. Senator, I know you're well aware Inspector 
Generals do not set policy; however, they can put out facts and 
information to inform policy makers so they can make better 
decisions. And so part of that process of making sure that the 
facts are out there so policy makers can use them to make 
decisions on whether something like MOX should go forward.
    Senator Franken. Right, because I would think that for the 
policy makers there are going to be decisions that have to be 
made about this whether to go forward, and I think a lot of 
that will be based on the conclusions that the Inspector 
General's Office comes up with.
    Thank you for your testimony, and thank you for your 
service to this country.
    Madam Chair.
    The Chairman. Thank you, Senator Franken.
    I appreciate you bringing up the issue of the MOX facility 
and how you might deal with that. There has obviously been a 
great deal of discussion about that in the Committee over, 
certainly, the past year, if not more.
    I am going to ask what will probably be a very general 
question by using a specific example. The Iran deal, clearly a 
divergence of views on that. I am one who has expressed a great 
deal of concern about the Iran deal. While this Committee does 
not have jurisdiction over foreign affairs, there are certain 
aspects of implementation of this agreement that, as IG, you 
would have oversight of whether it is NNSA, DOE, EIA. They are 
part of the implementation and the monitoring.
    You have politics at play. I know people would be shocked 
to hear that. But you, again, are in this role as an 
independent entity.
    Are you concerned that you could be in situations where the 
Administration has clearly taken a very specific position and 
given that does it put undue political pressure on career 
professionals who may perhaps hold back on their own views 
because of the nature of the agreement but where they sit?
    It is a very general question and perhaps not clearly 
articulated, but it is one that we deal with in our world where 
how you balance the politics of an issue verses just being able 
to look straight forward at the facts and making sure that you, 
as an IG, are the one who really is intent on gaining 
information, factual information and moving forward 
recommendations in an unbiased and really not influenced by 
political view. I am not asking you to opine one way or another 
on the Iran deal, but I use that as an example of something 
that can be very politically charged. How will you navigate 
that?
    Ms. Beard. Thank you very much for the question, Madam 
Chairman.
    I think in my role already in the General Counsel's Office, 
as the designated agency ethics official and if I were 
fortunate enough to be confirmed as Inspector General, the key 
here is independence and being willing to follow, to find the 
facts, follow the law, apply the law and see where it goes 
without being concerned about where--without fearlessly and not 
being concerned on the outcome of no matter where it may point. 
To me it's really important that the Inspector General have 
that, to be able to do that.
    I think that in the DOE Organization Act, you know, it's 
clear that the Inspector General reports to the Secretary, only 
the Deputy Secretary.
    And it also is clear, you know, there's no time limit on 
the position. I've worked previously with both, in both 
Republican and Democratic Administrations, and I think that I 
would be able to do that as Inspector General and carry that 
forward and be independent in that way and not worry about it.
    I also have the advantage, I will admit this, of being 
almost retirement eligible, so I don't have to worry about it 
from that perspective either. [Laughter.]
    The Chairman. You have thought about that.
    Let me ask about contract management because so much of 
what comes through DOE is managed by contractors as opposed to 
Federal employees. So the task of directing and managing and 
overseeing and really incentivizing these contractors, I think, 
is important for the success of the mission.
    I have two questions here. What do you view is the DOE IG's 
role in improving and ensuring effective contract management 
because that has got to be a priority? But also in evaluating 
and scrutinizing contractor award fees because there have been 
issues that have presented themselves in terms of mission and 
scope of the contracts and how these award fees are balanced 
with that. So if you can speak generally to the role of 
contract management and specific to award fees.
    Ms. Beard. Thank you very much for the question, Madam 
Chairman.
    As you are all well aware the Department does the vast 
majority of its business through major contracts. I have not 
personally been involved in any award fee issues while I was in 
the Counsel's Office, but clearly if you are looking at how 
taxpayer dollars are being spent at the Department that's where 
the vast majority of money is going.
    I think the role of Inspector General, again, is policing 
as a watch dog of how prudently that money is spent. Issues 
like award fees would obviously be an issue that an Inspector 
General would look at.
    The Chairman. Let me turn to Senator Wyden.
    Senator Wyden. Thank you very much.
    Senator Franken. Madam Chair?
    Madam Chair, since you brought it up I think it would be a 
really good idea to ask the nominee her personal views on the 
Iran deal.
    The Chairman. I am not going to get into----
    Senator Franken. I am joking, that was just--I just wanted 
to get that out of the way. I knew that you were not asking 
that.
    The Chairman. Senator Wyden?
    Senator Wyden. Thank you very much, Madam Chair.
    Ms. Beard, as we visited yesterday, Hanford and the high 
level radioactive wastes there join the Columbia River which is 
the lifeblood of my state and the lifeblood for everything from 
recreation to business, environmental values. This is right at 
the heart of the DNA of the people that I represent. I was 
there last week, and the Hanford site's legacy of failed 
performance and retaliation against whistleblowers and workers 
who raised safety concerns is alive and well.
    The GAO pointed out last year $19 billion has been spent 
over the past 25 years to clean up these high level, 
radioactive wastes at Hanford. So far not a gallon, not a 
single gallon, of high level, radioactive waste has actually 
been treated. Under the current schedule the waste treatment 
plant will not be in full operation for another 20 years. If 
getting this waste cleaned up was not so essential to public 
health and environmental protection, I guess it might be a 
sequel for the movie, Money Pit.
    What I would like to know is what we talked about 
yesterday. What, as Inspector General, would you do, 
specifically, to end business as usual at Hanford?
    Ms. Beard. Thank you very much for the question, Senator.
    I share your concerns about how taxpayer money is being 
spent at Hanford, and I also share your concerns regarding 
worker safety that we talked about yesterday as well.
    The Office of Inspector General has a history of issuing a 
number of reports concerning the Hanford site. If I were 
fortunate enough to be confirmed, I envision that that history 
would continue and with additional reports.
    As I also mentioned I'd like to see a more robust follow up 
on the recommendations that are made in the reports issued by 
the Inspector General's Office. And that would be a main focus 
of mine if I were fortunate enough to be confirmed, is that 
follow up to making sure the Department is actually taking the 
actions that are being recommended.
    Senator Wyden. So I listened carefully to those words.
    You share my concerns. I cannot tell you, and I say this 
respectfully because I enjoyed visiting with you and I was 
Chair of this Committee so I know this is a tough job, I cannot 
tell you how many times a nominee has said, ``I share your 
concerns.'' Then you said you are going to do reports, and I 
cannot tell you how many times I heard about reports. Then 
something about action, although I was not really clear what 
that was all about.
    But that is not changing business as usual, Ms. Beard, that 
is more of the same. Now if you told me that it was your plan, 
after a report was issued, to come up with a timetable to 
implement the recommendations within a specific period of time, 
I might say that, at least, sounds like something might change.
    But what has concerned me is you have been there at the 
Department of Energy for 27 years, not specifically on these 
kinds of issues, and I have real questions, particularly when 
there is such a need to change business as usual and produce 
some new accountability and change the policies.
    When I was there last week, for example, it just seemed 
like it took forever to drag out what was going to be done to 
inspect the bottom of the really dangerous tank. I was told, 
well gee, technologically we couldn't do it but we were going 
to look at such and such. Finally after going round and round 
there was something about some sort of science grant that could 
produce some changes.
    You are going to walk in to an area where you are going to 
see a huge array of pressing safety concerns at a time when 
vast sums of money are going to be going out the door, as has 
been the case for decades now, and it does not seem like much 
is going to change.
    So let me give you another round at it. I thought the last 
part of your answer at least suggested a kernel of reform. But 
why don't you take another crack at it?
    Ms. Beard. Thank you very much, Senator.
    I may have not been clear. Let me talk a little bit more 
about what I envision for robust follow up.
    What I've seen in some cases in my time at the Department 
is when it comes to reports issued by the Office of Inspector 
General is they issue a report, it has recommendations, and the 
Department does not do a lot with them or takes an awful long 
time to do anything with them.
    I was mentioning earlier a report I had just seen recently, 
those issued by the Inspector General, which basically found 
that they were looking at something five years later and still 
nothing had been done. And that's not acceptable.
    And so what I was talking about from the Inspector 
General's point of view, if I'm fortunate enough to be 
confirmed, is to have more robust follow up to make sure the 
Department is taking action. And if the Department is not 
taking action, to be more public about the action that's not 
being taken and working with the Congress and working with the 
Secretary to make sure the Secretary is aware and the Congress 
is aware that actions are not being taken, if that's the case.
    Senator Wyden. I am over my time. I don't know where you 
are, Madam Chair, in terms of numbers of rounds and who is 
where. Whenever you----
    The Chairman. We are working on seconds.
    Senator Wyden. Great, then I will wait for the second 
round.
    The Chairman. Senator Franken is next.
    Senator Wyden. I will wait for that.
    Senator Franken. No, go ahead, please.
    Senator Wyden. No, no, I am--whatever.
    Senator Franken. No, no, I think you are on to----
    The Chairman. Senator Wyden, you can continue.
    Senator Franken. Continue if you want.
    Senator Wyden. I just have two other questions real 
briefly.
    Why don't you furnish me in writing how you would make a 
change and a specific kind of timetable for implementing the 
recommendations of the Inspector General, because I know that 
the Committee under the Chair wants to move quickly. Why don't 
we say 72 hours? Just give me some answers on the timetable.
    Second, we have a very serious problem with whistleblowers.
    I went with the Attorney General, outstanding Attorney 
General Bob Ferguson, and met with the tank farm workers who 
have been exposed to these hazardous chemical vapors. Four 
dozen workers have complained of chemical exposure in the past 
ten days, just in the last ten days. This isn't some kind of 
abstraction from eons ago. But in ten days 48 workers have 
complained of chemical exposure, and the Department says it is 
not a problem.
    The workers say that they're being threatened with losing 
their jobs. Hard to see why they wouldn't be worried because 
there are loads of examples. These problems exist throughout 
the DOE complex. We saw it at Savannah River. This is an area 
my colleagues, Senators McCaskill, Markey, and I have been in 
together.
    What will you do to blow the whistle on the Department's 
chronic mistreatment of whistleblowers?
    Ms. Beard. Thank you again for the question, Senator.
    In the past I know that the Office of Inspector General has 
looked at the whistleblower issue previously. I think that it's 
a very important issue. I think whistleblowers play a very 
important role in making sure that the public is aware and the 
government is aware of some things that are of inappropriate 
activities that are going on. And I also think it's very 
important that whistleblowers be free of retaliation and be 
able to feel that they can come forward without fear of losing 
their jobs.
    In the past, as I mentioned earlier, the Office of 
Inspector General has looked at some matters regarding 
whistleblowers. If I'm fortunate enough to be confirmed, I 
would do that again.
    In addition, I know there are some matters pending right 
now within the Office of Inspector General regarding 
whistleblowers and I would work to make sure those are handled 
promptly and made--and resolve it as quickly as possible.
    Senator Wyden. I am way over my time.
    I hope in writing you will tell me specifically what would 
change because the answer you gave me on that point is 
virtually identical to what I have heard from individuals with 
respect to this position year after year.
    So hold the record open. I would like to know specifically 
what is going to change with respect to these whistleblowers.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Wyden. Thank you, Madam Chair. Thank you for the 
extra time.
    The Chairman. Thank you, Senator Wyden. We would ask that 
the nominee please provide the information. As Senator Wyden 
has said, the more expeditiously we can get responses to the 
members' requests, the more quickly we can move. So thank you, 
Senator Wyden and thank you, Senator Franken.
    I have just one final question and then we will wrap up 
here this morning.
    There has been great discussion about your years of service 
within the Department, 27 years within the Department of Law. 
That is considerable legal background. I also understand your 
comment about not being involved in the programmatic areas but 
having a very keen focus on the ethics and other areas as well.
    But so much of what IGs are tasked to do relates to the 
auditing that goes on. Looking at your background I do not see 
anything that relates to direct auditing experience. So if you 
can give me either anything that you might think would be 
helpful in that regard in terms of your experience or inform me 
how you would intend to manage a group of professionals who 
perform these audits and inspections and evaluations without 
having performed such roles yourself?
    Ms. Beard. Thank you very much for the question, Senator.
    Well, I've never been an auditor. I'm not an accountant. I 
do have a background in a lot of appropriations areas which 
does have some similar aspects to it.
    The Chairman. Did you get that within DOE?
    Ms. Beard. Yes, I do appropriations work for the 
Department.
    But in addition, if I was fortunate enough to be confirmed, 
there are many other Inspector Generals who are lawyers. And I 
know there are certain continuing education classes you can 
take regarding the auditing function that some of them, I 
think, are offered by the Council of the Inspectors General on 
Integrity and Efficiency (CIGIE) and other groups. And that is 
something that I would definitely do to make sure I could do 
that and so I can help make sure while I'm supervising the 
teams of auditors, that I have the necessary background in that 
area.
    The Chairman. Well it is, indeed, a big task and an 
incredibly important position, and as I noted in my comments, 
for all intents and purposes this is not just an appointment to 
a position that lasts for a term of an Administration but 
continues beyond. So the process, the vetting process, that we 
are going through right now as a Committee is an important one. 
As you know, it will not be the only one that you will go 
through, but taking that first cut here this morning before the 
Energy Committee is important.
    I appreciate your responses. I will appreciate, as I know 
other colleagues will, your prompt replies to any questions 
that you feel need to be supplemented today.
    Again, we appreciate your willingness to step forward. To 
your family who have joined you this morning and have been very 
patient with the time, thank you very much.
    We stand adjourned.
    [Whereupon, at 11:14 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                   <all>
</pre></body></html>
